Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MOST MEDICAID CHILDREN IN
    NINE STATES ARE NOT
  RECEIVING ALL REQUIRED
   PREVENTIVE SCREENING
          SERVICES




                    Daniel R. Levinson
                     Inspector General

                       May 2010
                     OEI-05-08-00520
    I N T R O D            U C T       I O N
           E X E C U T I V E                                   S U M M A R Y


                             OBJECTIVES
                             1. To determine the extent to which children in nine selected States
                                received required Medicaid Early and Periodic Screening, Diagnostic,
                                and Treatment (EPSDT) screenings.

                             2. To determine the extent to which children in nine selected States
                                received all of the required components of EPSDT medical
                                screenings.

                             3. To describe nine selected States’ efforts to increase EPSDT-eligible
                                children’s participation in EPSDT screenings and the completeness
                                of EPSDT medical screenings.


                             BACKGROUND
                             Medicaid provides a comprehensive and preventive child health benefit
                             for children under the age of 21, known as the EPSDT benefit. Services
                             provided under the EPSDT benefit are intended to screen, diagnose, and
                             treat children eligible for EPSDT services at early, regular intervals to
                             avoid or minimize childhood illness. The EPSDT services cover
                             four health-related areas: medical, vision, hearing, and dental. This
                             study focuses on medical, vision, and hearing screenings.

                             Only medical screenings have components specifically required by the
                             statute. Complete medical screenings under the EPSDT benefit must
                             include the following five components: a comprehensive health and
                             developmental history, a comprehensive unclothed physical
                             examination, appropriate immunizations, appropriate laboratory tests,
                             and health education.

                             We reviewed medical records in 9 States for a sample of 345 children
                             enrolled in Medicaid in 2007. We also conducted structured interviews
                             with State Medicaid staff responsible for the EPSDT benefit in nine
                             States.


                             FINDINGS
                             Three out of four children did not receive all required medical,
                             vision, and hearing screenings. In 9 States, 76 percent of children, or
                             2.7 million children, did not receive 1 or more of the required EPSDT
                             medical, vision, or hearing screenings. Forty-one percent of children did
                             not receive any required medical screenings. In addition, more than half
                             of children did not receive any required vision or hearing screenings.

OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   i
    E X E C U T I V E                           S U          M M A R Y


                             Nearly 60 percent of children who received EPSDT medical
                             screenings lacked at least one component of a complete medical
                             screening. Fifty-five percent, or nearly 2 million children in 9 selected
                             States, received medical screenings. Of these 2 million children,
                             59 percent did not receive all five required components of a medical
                             screening during a 1-year period. Children were missing appropriate
                             laboratory tests most often; 38 percent of children who received medical
                             screenings did not receive this component.
                             All nine States reported strategies to improve participation in EPSDT
                             screenings and the completeness of EPSDT medical screenings.
                             Officials from all selected States’ Medicaid agencies identified strategies
                             to increase both the number of children who receive screenings as well
                             as the completeness of medical screenings. Officials from all selected
                             States identified at least one of three main strategies to improve
                             beneficiary participation in EPSDT: direct communication to eligible
                             families, outreach, and incentives. In addition, officials from all selected
                             States reported strategies to increase the number of complete
                             screenings, primarily through education and incentives for providers.


                             RECOMMENDATIONS
                             Most children are not fully benefiting from EPSDT’s comprehensive
                             screening services. Two primary factors contributed to this problem.
                             First, children did not receive the correct number of each type of
                             screening. Second, when children received medical screenings, they
                             were often incomplete. These two factors taken together indicate that
                             very few children received the correct number of complete medical
                             screenings and the correct number of vision and hearing screenings.

                             In addition, while all States reported strategies to improve both the
                             number of screenings and the completeness of medical screenings, these
                             strategies do not appear to have the desired effect. The disconnect
                             between States’ efforts to improve the EPSDT program and the low
                             number of children receiving required screenings is difficult to account
                             for, but indicates that additional efforts are required.

                             Therefore, we recommend that CMS:
                                 require States to report vision and hearing screenings,
                                 collaborate with States and providers to develop effective
                                  strategies to encourage beneficiary participation in EPSDT
                                  screenings,

OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   ii
    E X E C U T I V E                           S U          M M A R Y


                                 collaborate with States and providers to develop education and
                                  incentives for providers to encourage complete medical
                                  screenings, and
                                 identify and disseminate promising State practices for
                                  increasing children’s participation in EPSDT screenings and
                                  providers’ delivery of complete medical screenings.


                             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                             RESPONSE
                             For the first recommendation, CMS stated that it will consider how
                             hearing and vision screenings could be included as part of revised or
                             new data collection efforts. However, CMS indicated that it will need to
                             assess the effect that new data collection requirements might have on
                             States’ financial resources as well as consider the difficulty States
                             might have in obtaining data on services that are provided outside
                             traditional provider settings. We agree that CMS should assess the
                             costs of any new data collection requirements for vision and hearing
                             screenings and States’ ability to collect these data. However, we
                             continue to think that requiring States to report vision and hearing
                             screenings will enable CMS to better monitor participation in these
                             screenings.

                             CMS concurred with our other three recommendations and indicated its
                             commitment to improving beneficiary and provider participation in
                             EPSDT. CMS stated that in collaboration with States and national
                             experts, it has begun efforts to improve the provision of EPSDT services.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   iii
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    Three out of four children did not receive all required medical,
                    vision, and hearing screenings . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    Nearly 60 percent of children who received EPSDT medical
                    screenings lacked at least one component of a complete medical
                    screening . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    All nine States reported strategies to improve participation in
                    EPSDT screenings and the completeness of EPSDT medical
                    screenings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                    Agency Comments and Office of Inspector General Response . . . 23


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                    A: Components of a Complete Medical Screening. . . . . . . . . . . . . 25

                    B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    C: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 33

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
           I N T R O D U C T I O N


                             OBJECTIVES
                             1. To determine the extent to which children in nine selected States
                                received required Medicaid Early and Periodic Screening, Diagnostic,
                                and Treatment (EPSDT) screenings.

                             2. To determine the extent to which children in nine selected States
                                received all of the required components of EPSDT medical
                                screenings.

                             3. To describe nine selected States’ efforts to increase EPSDT-eligible
                                children’s participation in EPSDT screenings and the completeness
                                of EPSDT medical screenings.


                             BACKGROUND
                             Earlier studies have reported ongoing problems with Medicaid’s EPSDT
                             benefit, which includes preventive screening services for eligible
                             children under the age of 21. A 1997 Office of Inspector General (OIG)
                             report found that 60 percent of children in a managed care setting did
                             not receive required screenings. 1 Also, the National Health Law
                             Program in 2005 concluded that since its inception, the EPSDT benefit’s
                             success in screening and treating eligible children has not met
                             expectations. For example, in 2003, only 15 percent of children under
                             5 years of age were reported to have received blood lead tests. 2 Most
                             recently, in August 2009, the Government Accountability Office (GAO)
                             noted low participation of children in EPSDT. 3
                             Low-income children with public insurance are more likely to be in poor
                             health. 4 Research has confirmed a relationship between low-income
                             and chronic health issues, such as depression and obesity, 5 iron



                                1 OIG, Medicaid Managed Care and EPSDT, OEI-05-93-00290, May 1997.
                                2 National Health Law Program, Children’s Health Under Medicaid: A National                                                         Review
                             of Early and Periodic Screening, Diagnosis, and Treatment 1999–2003, May 2005.
                                3 GAO, Medicaid Preventive Services: Concerted Efforts Needed to Ensure Beneficiaries
                             Receive Services, GAO-09-578, August 2009.
                                4 Christie Provost Peters, “EPSDT: Medicaid’s Critical but Controversial Benefits
                             Program for Children,” National Health Policy Forum, Issue Brief No. 819,
                             November 20, 2006. Accessed at http://www.nhpf.org on September 20, 2009.
                                5 Elizabeth Goodman, “The Role of Socioeconomic Status Gradients in Explaining
                             Differences in US Adolescents’ Health,” American Journal of Public Health, Vol. 89, No. 10,
                             October 1999. Accessed at http://www.ajph.org on September 11, 2009.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   1
    I N T R O D            U C T       I O N


                             deficiency, 6 and poor cognitive development. 7 Identifying and
                             addressing these issues through preventive screening in childhood may
                             have greater effects on adult health than addressing them later in life. 8
                             The EPSDT benefit and preventive care continue to be a priority among
                             policymakers. In 2006, congressional committee chairmen sent a letter
                             to the Secretary of Health & Human Services (the Secretary) to clarify
                             which changes in Medicaid, as a result of the Deficit Reduction Act of
                             2005, were not intended to alter EPSDT coverage and that EPSDT
                             remains a required Medicaid benefit. 9
                             Medicaid’s EPSDT Benefit
                             The EPSDT benefit provides a comprehensive and preventive child
                             health program for children under the age of 21. Every State Medicaid
                             program must offer the EPSDT benefit.

                             The EPSDT-eligible children include all children who are categorically
                             eligible for Medicaid based on income guidelines established in Federal
                             law. 10 States may choose to extend EPSDT benefits to all Medicaid-
                             eligible children under the age of 21. 11 In 2007, 31.5 million children
                             were eligible for EPSDT. 12
                             Services provided under the EPSDT benefit are intended to screen,
                             diagnose, and treat children eligible for EPSDT services at early,
                             regular intervals to avoid or minimize childhood illness. The EPSDT
                             services cover four health-related areas: medical, vision, hearing, and


                                6 Katherine Alaimo, et al., “Food Insufficiency, Family Income, and Health in US
                             Preschool and School-Aged Children,” American Journal of Public Health, Vol. 91, No. 5,
                             May 2001. Accessed at http://www.ajph.org on September 11, 2009.
                               7 Sanders Korenman, et al., “Long-Term Poverty and Child Development in the United
                             States: Results from the NLSY,” Children and Youth Services Review, Vol. 17, No. 1/2,
                             1995. Accessed at http://www.sciencedirect.com on September 11, 2009.
                               8 Jack P. Shonkoff, W. Thomas Boyce, and Bruce S. McEwen, “Neuroscience, Molecular
                             Biology, and the Childhood Roots of Health Disparities,” JAMA, 2009, p. 1. Accessed at
                             http://jama.ama-assn.org on September 3, 2009.
                                9 “Grassley Specifies Intent of Two Medicaid Provisions in Deficit Reduction Act. U.S.
                             Senate Committee on Finance.” (Letter from Senator Charles Grassley and Representative
                             Joe Barton to Michael O. Leavitt, Secretary, Health & Human Services.) Accessed at
                             http://finance.senate.gov on October 2, 2009.
                               10 Social Security Act, § 1902(a)(10)(A)(i), 42 U.S.C. § 1396a(a)(10)(A)(i), and Social
                             Security Act, § 1905(a)(4)(B), 42 U.S.C. § 1396d(a)(4)(B).
                               11 Centers for Medicare & Medicaid Services (CMS), State Medicaid Manual,
                             Pub. No. 45, ch. 5, § 5010(A).
                                12 CMS, Annual EPSDT Participation Report Form CMS-416 (National), 2007. Accessed
                             at http://www.cms.hhs.gov on September 2, 2009.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   2
    I N T R O D            U C T        I O N


                             dental. 13 This study focuses on medical, vision, and hearing
                             screenings. 14
                             Medical screenings. Only medical screenings have components
                             specifically required by the statute. Complete medical screenings under
                             the EPSDT benefit must include the following five components: 15
                              a comprehensive health and developmental history (including
                               assessment of both physical and mental health development);
                              a comprehensive unclothed physical examination;

                              appropriate immunizations, as established by the Advisory
                               Committee on Immunization Practices, according to age and health
                               history; 16
                              appropriate laboratory tests (including blood lead level assessment
                               appropriate for age and risk factors); and
                              health education (including anticipatory guidance). 17

                             For a more thorough description of the five components of a medical
                             screening, see Appendix A.

                             For a medical screening to be considered complete, immunization
                             history must be reviewed and immunizations administered when
                             appropriate. At each screening, a provider should check a child’s
                             immunization record and update when appropriate. Immunizations
                             should be provided following the recommendations of the Advisory
                             Committee on Immunization Practices. 18
                             In addition, for a medical screening to be considered complete,
                             laboratory tests (hereinafter referred to as lab tests) must be
                             administered when appropriate. Each State establishes its own




                                13 Social Security Act, § 1905(r), 42 U.S.C. § 1396d(r). Note that where the statute refers

                             to screening services in § 1905(r)(1), medical screenings are described. For clarity’s sake,
                             we refer to screening services as medical screenings.
                                14 This study will not examine dental screenings because CMS was conducting a detailed
                             review of dental screenings and services while this study was underway.
                                15 Social Security Act, § 1905(r)(1)(B), 42 U.S.C. § 1396d(r)(B).
                                16 CMS, Manual, § 5123.2(C).
                               17 Anticipatory guidance is intended to assist in understanding what to expect in the
                             child’s development.
                                18 CMS,    Manual, § 5123.2(C).



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   3
    I N T R O D            U C T        I O N


                             guidelines for which lab tests are required at each medical screening. 19
                             Lab tests may include the test itself or an assessment for risk, which
                             States often require to determine if a lab test should be performed. The
                             only federally required lab test is a blood lead test, required at 12 and
                             24 months. 20
                             Vision and hearing screenings. Vision and hearing screenings may or
                             may not be performed at the same time as a medical screening. While
                             States may require that vision and hearing screenings occur during a
                             medical screening, 21 it is not a Federal requirement. 22 In some cases,
                             vision and hearing screenings, particularly for school-aged children,
                             may be performed in settings outside a physician’s office. However, if
                             States require vision and hearing screenings during the medical
                             screening, they must be documented. 23
                             Diagnosis and treatment. In addition to including screenings, EPSDT
                             includes other necessary health care and diagnostic and treatment
                             services to address concerns identified during medical, vision, hearing,
                             or dental screenings. 24 These include, but are not limited to, inpatient
                             and outpatient hospital services, home health care services, case
                             management services, eyeglasses, and hearing aids. 25
                             EPSDT Screening Schedules
                             Each State establishes its own periodicity schedules for each type of
                             screening. Periodicity schedules outline the frequency of each type of
                             screening, which varies by age. Each State must develop these
                             schedules in consultation with recognized medical organizations
                             involved in children’s health care. 26 Guidance from CMS states that
                             screenings must be provided at “intervals which meet reasonable




                                19 CMS, Manual, § 5123.2(D). See also CMS, Manual, § 5123.2(A)(2) (requiring a lab test
                             to screen for iron deficiency).
                                20 Social Security Act, § 1905(r)(1)(B)(iv), 42 U.S.C. § 1396d(r)1)(B)(iv), and CMS,
                             Manual, § 5123.2(D)(1).
                                21 CMS, Manual, § 5123.2(F).
                                22 Social Security Act, §§ 1905(r)(2) and 1905(r)(4), 42 U.S.C. § 1396d(r)(2), and
                             § 1396d(r)(4).
                                23 CMS, Manual, § 5310(A).
                                24 Social Security Act, §§ 1905(r)(2)(B), 1905(r)(3)(B), 1905(r)(4)(B), and 1905(r)(5).
                                25 Social Security Act, §§ 1905(r)(2)(B), 1905(r)(3)(B), 1905(r)(4)(B), 1905(r)(5), and
                             1905(a).
                                26 CMS,    Manual, § 5140(A).



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   4
    I N T R O D            U C T        I O N


                             standards of medical practice.” 27 In addition, CMS requires an initial
                             screening following enrollment in Medicaid. 28
                             State periodicity schedules for medical screenings vary in the number
                             of medical screenings required. The American Academy of Pediatrics
                             (AAP) recommends multiple medical screenings per year for children
                             under age 2 and one screening per year after age 2. State
                             requirements range from four to seven medical screenings for infants
                             under age 1 and two to three medical screenings per year for 1- and
                             2-year-olds. For children 3 or older, States typically require one
                             medical screening every 1 to 2 years.
                             State periodicity schedules for other screening types also vary. States
                             generally follow AAP recommendations that vision and hearing
                             screenings occur with the same frequency as medical screenings.
                             EPSDT State Requirements
                             CMS requires States to notify all eligible families of available services
                             and the need for appropriate immunizations. 29, 30 At a minimum, this
                             must occur within 60 days after the date of the initial determination of
                             eligibility for Medicaid and a determination of eligibility after a period
                             of ineligibility. CMS allows flexibility in the notification methods
                             employed by States. 31
                             In addition, services provided during a screening visit must be recorded
                             and records must be available to verify those services. CMS instructs
                             States that providers of EPSDT services must “agree to keep records
                             necessary to disclose the extent of services furnished and information
                             regarding payment of claims.” 32 Some States publish forms for
                             providers to complete during EPSDT medical screenings to assist with
                             documentation. The forms generally have a section for each of the five
                             components; are age specific; and list development and nutrition
                             questions, appropriate lab tests, and immunizations.




                                27 CMS,    Manual, § 5140(A).
                                28 CMS,    Manual, § 5140(C).
                                29 Social Security Act, § 1902(a)(43)(A), 42 U.S.C. § 1396a(a)(43)(A).
                                30 The legislation states that eligible people under the age of 21 are to be notified, but the
                             Manual, § 5121(B), clarifies that States are to inform eligible families of the availability of
                             EPSDT.
                                31 CMS,    Manual, § 5121(A).
                                32 CMS,    Manual, § 5310(A).



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   5
    I N T R O D            U C T       I O N


                             Further, the Omnibus Budget Reconciliation Act of 1989 (OBRA 1989)
                             strengthened EPSDT by establishing State reporting requirements for
                             EPSDT and mandating that the Secretary set participation goals for the
                             States. 33, 34 In response to OBRA 1989, the Secretary required annual
                             reporting via the “Annual EPSDT Participation Report” Form CMS-416
                             (CMS-416) and established a goal of 80-percent beneficiary participation
                             in EPSDT for each State. 35
                             The CMS-416 provides information, focused primarily on medical
                             screenings, about beneficiary participation in EPSDT screenings.
                             Specifically, States report the expected and total number of screenings
                             received at an aggregate level and for seven different age groups. 36
                             CMS instructs States to use certain Current Procedural Terminology
                             (CPT) codes as a proxy for reporting EPSDT screenings. 37 However a
                             State may use a different method of counting EPSDT screenings, if one
                             exists. 38 States are to report only complete medical screenings that
                             include all five age-appropriate components. 39 States do not have to
                             report on vision and hearing screenings on the CMS-416.

                             According to CMS-416 reports, States have continued to fall short of the
                             80-percent beneficiary participation goal established by the Secretary.
                             Beneficiary participation is measured using the participant ratio, which
                             is calculated by dividing the number of eligible children receiving at
                             least one EPSDT medical screening by the number of eligible children
                             who should receive at least one EPSDT medical screening. In 2007,
                             58 percent of those children expected to receive a medical screening
                             received at least one across all States. 40 Participation rates in 14 States


                               33 OBRA 1989, P.L. 101-239, Title VI, § 6403(b), Social Security Act, § 1902(a)(43)(D),
                             42 U.S.C. § 1396a(a)(43)(D).
                                34 OBRA 1989, P.L. 101-239, Title VI, § 6403(c), Social Security Act, § 1905(r), 42 U.S.C.
                             § 1396d.
                                35 CMS, Manual, §§ 5320.2(C) and 5360(B).
                                36 Each State uses its own periodicity schedule to determine the expected number of
                             screenings. States are instructed to determine each child’s age based upon his or her age as
                             of September 30. The age groups are: under 1, 1–2, 3–5, 6–9, 10–14, 15–18, and 19–20.
                               37 The CPT codes are a numeric coding system consisting of descriptive terms that are
                             used primarily to describe medical services and procedures furnished by physicians and
                             other health care practitioners.
                               38 CMS, Instructions for the CMS Form-416: Early and Periodic Screening, Diagnostic,
                             and Treatment (EPSDT) Report.
                                39 CMS,    Manual, § 5360(D).
                                40 CMS,    Annual EPSDT Participation Report Form CMS-416 (State), 2007. Accessed at
                             http://www.cms.hhs.gov on September 22, 2009.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   6
    I N T R O D            U C T       I O N


                             were at or below 50 percent. 41 In fact, only one State achieved the
                             Secretary’s goal in 2007.


                             METHODOLOGY
                             Through a review of medical records, this review determined the extent
                             to which children enrolled in Medicaid for all of 2007 in nine selected
                             States received required Medicaid EPSDT screenings and all of the
                             required components of EPSDT medical screenings. In addition, this
                             review describes nine selected States’ efforts to increase beneficiary
                             participation in EPSDT screenings and the completeness of EPSDT
                             medical screenings. This information was collected in structured
                             interviews with State officials responsible for the EPSDT benefit. See
                             Appendix B for a detailed methodology.
                             Scope
                             This study assesses medical, vision, and hearing screenings for children
                             in the nine selected States. The medical record review did not include
                             an assessment of the quality of care or the medical necessity of the
                             services. In addition, it did not include whether services were billed
                             correctly; therefore, we did not estimate potential overpayments.
                             Finally, we did not focus on the diagnostic or treatment aspects of
                             EPSDT. Therefore, we did not determine whether children were offered
                             appropriate followup care based on information identified in the
                             screenings.
                             Sample
                             State selection. To determine which States to select, we used States’
                             2006 CMS-416 submissions. We ranked 39 States and the District of
                             Columbia by number of EPSDT-eligible children and participant ratio
                             and then summed the 2 rankings to create a combined score for each
                             State. To provide us with a range of State sizes and EPSDT
                             participation, we chose the five States with the lowest combined score
                             and the five States with the highest combined score. The States
                             initially selected for this study included: Arkansas, Florida, Idaho,
                             Illinois, Missouri, North Carolina, North Dakota, Texas, Vermont, and
                             West Virginia.




                               41 CMS, Annual EPSDT Participation Report Form CMS-416 (State), 2007. Accessed at
                             http://www.cms.hhs.gov on September 22, 2009.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   7
    I N T R O D            U C T       I O N


                             Beneficiary sampling frame. We created a sampling frame of children
                             who fit three characteristics: (1) enrolled in Medicaid for all of 2007,
                             (2) eligible for the EPSDT benefit for all of 2007, and (3) expected to
                             receive at least one EPSDT medical screening in their sample periods.
                             The sample period is a 14-month period based on a child’s birthday and,
                             therefore, is different for each child. The sample period is described in
                             more detail below.

                             To create the sampling frame, we used Medicaid eligibility data from
                             the selected States and States’ periodicity schedules. We used the
                             eligibility data to exclude children who were not enrolled in Medicaid or
                             not eligible for the EPSDT benefit for all of 2007. We also used the
                             eligibility data to determine the age of each EPSDT-eligible child. Once
                             we determined children’s ages, we used States’ periodicity schedules to
                             exclude any child not expected to receive an EPSDT medical screening
                             at that age. We combined all of the remaining children from the
                             10 originally selected States into 1 sampling frame.

                             Beneficiary sample. After creating the sampling frame of children
                             expected to receive EPSDT medical screenings, we selected a stratified
                             random sample of 360 children. We stratified by age and delivery model
                             (fee-for-service or managed care). After selecting our sample, we
                             excluded 11 children because of ongoing provider investigations by OIG
                             or State Medicaid Fraud Control Units. 42 Because of these exclusions,
                             North Dakota was no longer represented in the sample because the only
                             sampled child from the State had a provider under investigation. As a
                             result, nine States were included in our review. We dropped an
                             additional four children because further research deemed them
                             ineligible for EPSDT. The final sample consisted of 345 children.
                             Data Collection
                             Medical record request. For the sample of 345 children, we asked States
                             to furnish provider contact information for providers that billed
                             EPSDT-related codes during the child’s sample period. 43
                             For 82 sampled children, who were expected to receive medical
                             screenings every other year based on their ages and their States’


                                42 A State Medicaid Fraud Control Unit is a State government entity, annually certified

                             by the Department of Health & Human Services, that conducts a statewide program for the
                             investigation and prosecution of health care providers that defraud the Medicaid program.
                                43 Providers were typically physicians. However, providers in one State included school
                             districts because they billed Medicaid for vision and hearing screenings.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   8
    I N T R O D            U C T       I O N


                             periodicity schedules, we used a 26-month sample period. For all
                             sampled children, the sample periods included at least 6 months of
                             2007. Collectively, the sample periods for all sampled children are
                             referred to as the study period.

                             For the 345 children, States reported that 98 children did not have any
                             providers that billed EPSDT-related CPT codes during their sample
                             periods. We considered these children to be missing all EPSDT
                             screenings. For the remaining 247 children, we requested, by mail,
                             complete medical records from each provider.

                             For the 247 children for whom we requested medical records, we
                             received responses from all providers. However, for 14 children, we did
                             not receive enough information to determine whether they received
                             screenings. We retained these children in the sample and classified
                             their records as having insufficient documentation.

                             Structured interviews. We interviewed State Medicaid staff responsible
                             for oversight of the EPSDT benefit from the nine selected States via
                             telephone. We inquired specifically about activities that the States used
                             to encourage beneficiary participation in EPSDT and complete EPSDT
                             medical screenings in 2007. In addition, we asked about any barriers to
                             increasing beneficiary participation or complete EPSDT medical
                             screenings that States encountered. These interviews took place during
                             November and December 2008.
                             Data Analysis
                             To determine the extent to which children received EPSDT services,
                             each child was assigned to one of four OIG staff reviewers who reviewed
                             medical records to determine whether a child received all, some, or none
                             of the required EPSDT screenings. We also reviewed medical records to
                             determine what types of screenings were received (medical, vision, or
                             hearing) and whether all five components of a medical screening
                             occurred. Reviewers used State periodicity schedules to determine the
                             types and numbers of screenings children were required to receive.

                             We used the results of our review, including the 98 children with no
                             EPSDT-related billing, to calculate the percentage of children missing
                             all, some, or none of the required screenings. We also did an analysis by
                             type of screening received. We considered a child to have received a
                             medical screening even if the screening did not include all five
                             components. Among the subpopulation of children who received
                             medical screenings, we also calculated the percentage of children
                             missing each of the five required components of a medical screening.

OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   9
    I N T R O D            U C T       I O N


                             To describe State efforts to increase EPSDT participation and
                             completeness of medical screenings, we analyzed all State interviews
                             and categorized the responses by topic (e.g., education, incentive,
                             barrier) and by the intended target of the effort (provider or eligible
                             family). We counted the number of States with responses in each
                             category.

                             Unless otherwise noted, we projected the results from our review to the
                             population of children in nine selected States who were enrolled in
                             Medicaid and the EPSDT benefit for all of 2007 and who were expected
                             to receive at least one EPSDT medical screening based on age. See
                             Appendix C for a list of 95-percent confidence intervals for all statistical
                             projections.
                             Data Limitations
                             Because we did not stratify the sample by State, we were not able to
                             calculate participation for individual States. Therefore, we were unable
                             to assess whether State efforts to increase children’s participation in
                             EPSDT had an effect. In addition, the results of this study cannot be
                             extrapolated nationally. Because of this and other methodological
                             differences, the results of this study cannot be directly compared to the
                             CMS-416 data.

                             We did not verify children’s enrollment status for the times in their
                             sample period that fell outside 2007 (all children had at least
                             6 months of their sample period in 2007). In these cases, we could have
                             counted a screening as missing, when, in fact, it should not have been
                             because the child was not enrolled in Medicaid. However, nearly
                             40 percent of the EPSDT claims we reviewed were for dates of service
                             outside 2007, indicating that children were generally enrolled in
                             Medicaid during their sample periods.

                             The estimates for the percentage of children who did not receive vision
                             and hearing screenings may be marginally overstated. One of the nine
                             selected States does not require that vision and hearing screenings be
                             documented during the medical screenings. In fact, officials from this
                             State reported that doctors were aware that vision and hearing
                             screenings occurred in schools and, therefore, the screenings were
                             usually not noted in medical records. However, the children from this
                             State make up less than 1 percent of the nine-State sampling frame.

                             Finally, the projections are only for children who were enrolled in
                             Medicaid and eligible for the EPSDT benefit for all of 2007. The sample
                             excludes children who were enrolled in Medicaid for only part of 2007.

OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   10
    I N T R O D            U C T       I O N


                             For this reason, the study results cannot be projected to all Medicaid
                             children in the nine selected States.
                             Standards
                             This study was conducted in accordance with the Quality Standards for
                             Inspections approved by the Council of the Inspectors General on
                             Integrity and Efficiency.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   11
           F I N D I N G S



     Three out of four children did not receive all                In 9 selected States, 76 percent of
required medical, vision, and hearing screenings                   children, or 2.7 million children, did
                                                                   not receive 1 or more of the
                                                                   required EPSDT medical, vision, or
                             hearing screenings during their sample period. Thirty-eight percent of
                             children did not receive any EPSDT screenings during their sample
                             periods. Moreover, only 21 percent of children received all screenings.
                             However, this percentage does not take into account the completeness of
                             medical screenings; this is addressed in the next finding. Chart 1
                             illustrates the extent to which children received required EPSDT
                             screenings, by percentage of children. 44


   Chart 1: Required
           Screenings
                                                                                                                           All types of
         Received, by                                             Missing types of
                                                                                                                         screenings, but
        Percentage of                                               screenings
                                                                                                                        incorrect number
                                                                        33%
              Children                                                                                                          4%




                                                                                                                                  All screenings
                                                                                                                                       21%




                                                                                                                               Insufficient
                                                                                                                             documentation
                                                                                                                                   4%
                                                                        No screenings
                                                                            38%




                             Source: OIG analysis of results of a review of medical records, 2009.


                             An additional 37 percent received at least one, but not all, required
                             EPSDT screenings based on their States’ periodicity schedules. The
                             percentage of children who received some, but not all, required EPSDT
                             screenings includes children in two categories: (1) children who
                             received all types of screenings (medical, vision, hearing), but received
                             the incorrect number of screenings according to the States’ periodicity
                             schedules, and (2) children who were missing types of screenings.


                               44 The 76 percent of children that did not receive 1 or more required screenings is
                             depicted in Chart 1 as 75 percent because of rounding.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   12
    F   I N D I N G           S


                             Four percent of children fall into the first category, those who receive all
                             types of screenings, but an incorrect number of screenings. This
                             includes only children under the age of 3, as they are the only children
                             for whom States’ periodicity schedules mandate multiple screenings per
                             year. For example, a child in this category could be a child under 1 who
                             received four medical, vision, and hearing screenings when the State
                             periodicity schedule recommends that six of each type occur.

                             Thirty-three percent of children fall into the second category, those who
                             received some screenings, but not all types. For example, an 8-year-old
                             child whose periodicity schedule recommends one of each type of
                             screening could have received a medical and vision screening, but not a
                             hearing screening.

                             Below is specific information on children who did not receive screenings,
                             broken out by the type of screening not received.
                             Four out of ten children did not receive any required medical screenings
                             Forty-one percent of children did not receive any required medical
                             screenings. Children who did not receive medical screenings were likely
                             to be missing all other types of screenings. Indeed, 86 percent of
                             children who did not receive medical screenings did not receive vision
                             and hearing screenings. There appears to be a link between not
                             receiving a medical screening and not receiving a vision and hearing
                             screening.
                             More than half of children did not receive any required vision or hearing
                             screenings
                             Sixty percent of children did not receive any vision screenings and
                             67 percent of children did not receive any hearing screenings. Further,
                             over half of children who did not receive vision or hearing screenings
                             also did not receive medical screenings. Specifically, 60 percent of
                             children who did not receive vision screenings and 56 percent of
                             children who did not receive hearing screenings did not receive medical
                             screenings.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   13
    F    I N D I N G           S




       Nearly 60 percent of children who received                   Fifty-five percent, 45 or nearly
    EPSDT medical screenings lacked at least one                    2 million children in the 9 selected
     component of a complete medical screening                      States, received medical
                                                                    screenings during the study
                                                                    period. Of these 2 million
                             children, 59 percent did not receive all five required components of a
                             medical screening during the study period: a comprehensive health and
                             developmental history, a comprehensive unclothed physical exam,
                             appropriate immunizations, appropriate lab tests, and health education.
                             More than a quarter of children who received medical screenings were
                             missing only one component of a complete medical screening. Chart 2
                             illustrates the number of missing components, by percentage of children
                             who received medical screenings.


     Chart 2: Number                                                       Four missing
                                                                         components, 2%
             of Missing
        Components, by                                      Three missing
                                                           components, 9%
         Percentage of
          Children Who
    Received Medical
            Screenings                       Two missing                                                                                 Complete screening,
                                           components, 18%                                                                                      41%




                                                                    One missing
                                                                  component, 30%



                             Source: OIG analysis of results of a review of medical records, 2009.




                               45 As noted in the first finding, 41 percent did not receive medical screenings. An
                             additional 4 percent of children had insufficient documentation in their medical records to
                             determine screenings received.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   14
    F   I N D I N G           S


                             Of the five components, children were missing appropriate lab tests most
                             often
                             While each of the five components was missing for at least some
                             children who received medical screenings, more children were missing
                             appropriate lab tests. 46 Thirty-eight percent of children who received
                             medical screenings did not receive appropriate lab tests. Chart 3
                             illustrates this, along with the percentage of children missing each of
                             the other components of a medical screening.


           Chart 3: Of
                                   Appropriate lab tests
         Children Who
    Received Medical
           Screenings,
                                       Health and
           Percentage             developmental history
         Missing Each
           Component
                                   Health education
                                (Anticipatory guidance)



                                          Appropriate
                                         immunizations



                                     Complete physical
                                       examination



                               Missing any component



                                                             0%              10%             20%             30%             40%             50%             60%              70%
                                                                                                           Percentage of Children



                             Source: OIG analysis of results of a review of medical records, 2009




                             Appropriate lab tests. Low receipt of lab tests is highlighted by
                             examining two lab tests in particular: blood lead tests and tuberculosis
                             (TB) tests. Blood lead tests are the only federally mandated lab test for
                             EPSDT medical screenings. 47 However, other lab tests, such as TB,
                             cholesterol, or a complete blood count, must be performed depending on
                             State requirements.


                               46 The difference is statistically different from other components at the 95-percent
                             confidence level in a multiple comparison test using a Bonferroni threshold of 0.0125.
                                47 Social Security Act, § 1905(r)(1)(B)(iv), 42 U.S.C. § 1396d(r)(1)(B) (iv).




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   15
    F   I N D I N G           S


                             Fifty-seven percent of 1- and 2-year-olds did not receive a blood lead test
                             as required. 48 CMS considers all children at risk for lead toxicity and
                             requires all children to receive blood lead tests at 12 and 24 months. 49
                             Children with “high” blood lead levels are at risk of decreased
                             intelligence, academic failure, and behavior problems. 50
                             Further, 69 percent of children required by their State to receive a TB
                             assessment did not receive one. Five of the nine selected States require
                             a TB assessment at certain ages. The disease can affect any part of the
                             body and can be fatal if left untreated. 51 Infection in children is a signal
                             of poor health conditions and a sign that preventive care needs
                             improvement. 52
                             Other components. The percentage of children who received medical
                             screenings and were missing each of the other required components,
                             although smaller than the percentage missing lab tests, is still a
                             concern. For example, 21 percent of these children did not have their
                             health and development history assessed and 21 percent of these
                             children did not receive health education.

                             One example from the sampled medical records highlights issues that
                             can arise from inadequate health education. One 4-month-old child was
                             documented to be “overfed” during the exam, and the child’s family was
                             given guidance to improve this. During the two previous medical
                             screenings, there was no health education documented. Had the
                             provider given information on proper feeding for infants during previous
                             medical screenings, the overfeeding might have been avoided.

                             A second example demonstrates the benefits of gathering a health
                             history and providing health education. In this case, the child went
                             from the 50th percentile to the 95th percentile in height/weight between


                                48 Because this percentage is based on a small sample size, the estimate is less precise
                             than other estimates presented in this report because of a larger standard error. See
                             Appendix C for a complete list of confidence intervals.
                                49 CMS, Manual, § 5123.2(D)(1).
                                50 Centers for Disease Control and Prevention (CDC),Recommendations for Blood Lead
                             Screening of Medicaid-Eligible Children Aged 1–5 Years: An Updated Approach to
                             Targeting a Group at High Risk, 58(RR09); 1-11, August 7, 2009. Accessed at
                             http://www.cdc.gov on October 2, 2009.
                                51 CDC, Tuberculosis (TB). Accessed at http://www.cdc.gov on October 2, 2009.
                                52 American Academy of Pediatrics, Red Book Online, Section 3: Summaries of
                             Infectious Diseases. Tuberculosis. Accessed at http://aapredbook.aappublications.org on
                             September 11, 2009.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   16
    F   I N D I N G           S


                             the 6-month visit and the 1-year visit. By collecting a thorough health
                             history, the provider determined that the increase was due likely to a
                             diet high in sugary drinks and offered guidance to move the child to a
                             more appropriate diet.

                                                                     Staff from all selected States’
          All nine States reported strategies to improve
                                                                     Medicaid agencies (hereinafter
              participation in EPSDT screenings and the              referred to as officials)
           completeness of EPSDT medical screenings                  identified efforts to increase
                             the number of children who receive screenings, as well as increase the
                             completeness of medical screenings.
                             Officials from all nine States reported efforts to improve participation in
                             EPSDT screenings, but barriers remain
                             Officials from all selected States identified at least one of three
                             strategies to improve participation in EPSDT: direct communication to
                             eligible families, outreach, and incentives. Despite these strategies,
                             officials from all States identified barriers to improving participation in
                             EPSDT screenings.

                                    communication Officials from all selected States indicated that
                             Direct communication.
                             States communicate directly with eligible families at multiple times
                             while a child is EPSDT-eligible. As required by Federal law, officials for
                             each State noted that their State provided either an initial letter or
                             beneficiary handbook upon enrollment in Medicaid. These documents
                             inform the family what services are available to them, including
                             EPSDT. However, officials from all selected States indicated that
                             States also provided additional notices to families at one or more of the
                             following times: when a screening is due, annually (usually around the
                             child’s birthday), when data indicate there is no EPSDT billing for the
                             child, or when a child has missed a scheduled appointment. Officials
                             from one State also indicated that a notice of when screenings are due is
                             printed on a child’s Medicaid identification card.

                             In addition, an official from one State described a system to help
                             determine when communication to families is needed. Officials in this
                             State reported that they established a no-reimbursement billing code
                             that providers can bill to Medicaid when beneficiaries miss
                             appointments so that the State can track these instances and
                             communicate directly with these families.

                             Outreach. Officials from all selected States also reported outreach
                             efforts aimed at the public and other State agencies. These efforts
                             included: outreach focused on special populations, such as high-risk

OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   17
    F   I N D I N G           S


                             individuals and adolescents; media campaigns; participation in health
                             fairs and food drives; and outreach in churches or schools. Officials
                             noted the importance of collaborating with other State agencies in
                             charge of Head Start, public health, and education. Some of these
                             collaborations include data-sharing agreements that allow Medicaid
                             staff to identify children who need screenings.

                             Incentives. Officials from four States discussed incentive programs
                             aimed at providers and families to increase participation. Examples of
                             provider incentives include additional payments to providers that
                             exceed the average screening rate by 5 percent and 10 percent,
                             pay-for-performance programs for preventive screenings for children
                             under the age of 5, and increased reimbursement rates for preventive
                             screenings. In addition, these officials indicated that some managed
                             care organizations provide small incentives (e.g., diaper coupons) to
                             families for bringing children to EPSDT screenings.

                             Barriers. However, officials from all selected States identified barriers to
                             getting children to visit a doctor for preventive screenings. The most
                             frequently cited barriers were cultural or family attitudes and
                             circumstances. The officials indicated that some parents think
                             preventive screenings are not necessary, believe children need to go to
                             the doctor only when sick, and have concerns about taking time off
                             work. Other barriers cited include limited access to providers, incorrect
                             beneficiary contact information, and failure of beneficiaries to keep
                             appointments.
                             Officials from all nine States reported strategies to increase the number of
                             complete medical screenings
                             Officials from all selected States reported efforts to increase the number
                             of complete medical screenings, primarily through education and
                             incentives. Officials from all selected States indicated that States
                             provide education to providers about screening requirements. In
                             addition, officials from some States reported incentive programs used to
                             increase the number of complete screenings.

                             Education. The officials from all selected States identified attempts to
                             inform and educate providers about EPSDT screening requirements.
                             The officials reported educating providers in a variety of ways, including
                             provider toolkits with information about the five components, online
                             information and training opportunities, provider handbooks and
                             bulletins, and in-person training or conferences. Despite these efforts,
                             officials in three States reported that some providers remain unaware of

OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   18
    F   I N D I N G           S


                             what a complete medical screening entails or do not believe all
                             components are necessary.

                             As a further reminder of the required components, four States have
                             standardized forms for providers to use during visits that contain all
                             components of a medical screening. Although actual use of
                             State-provided EPSDT screening forms is unknown, it may be low.
                             Records from sampled children in the four States with standardized
                             forms showed that only 40 percent of the sample records used the forms.

                             Incentives. In addition, officials from four States reported tracking some
                             components of the medical screening separately and offering incentives
                             to providers. Officials noted that tracking some components separately
                             enables the State to maintain a focus on them. In addition, officials
                             described incentive programs that States or managed care organizations
                             offer, including one that offers a bonus to providers if their percentages
                             of children immunized are above a set goal and a payment reduction
                             when immunization percentages are below the goal.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   19
           R E C O M M E N D A T I O N S

                             Most children are not fully benefiting from EPSDT’s comprehensive
                             screening services. Two primary factors contributed to this problem.
                             First, children did not receive the correct number of each type of
                             screening. In fact, only 21 percent of children received all required
                             medical, vision, and hearing screenings. Second, when children
                             received medical screenings, they were often incomplete. Specifically,
                             59 percent of children who received medical screenings did not receive
                             complete medical screenings. These two factors taken together indicate
                             that considerably less than 21 percent of children received the correct
                             number of complete medical screenings and the correct number of vision
                             and hearing screenings. This conclusion is supported by OIG and other
                             organizations that have established a body of work that indicates low
                             beneficiary participation in EPSDT covering at least a decade.

                             Although all States reported strategies to improve both the number of
                             screenings and the completeness of medical screenings, these strategies
                             do not appear to have the desired effect. The disconnect between States’
                             efforts to improve the EPSDT program and the low number of children
                             receiving required screenings is difficult to account for, but indicates
                             that additional efforts are required. When choosing which additional
                             efforts to implement, special emphasis should be placed on strategies
                             that States show to be effective or strategies in States with high
                             participation ratios.
                             To increase participation in EPSDT screenings and increase the
                             completeness of medical screenings, we make the following four
                             recommendations. CMS should:
                             Require States to report vision and hearing screenings
                             Currently, States do not report vision and hearing screenings to CMS on
                             the CMS-416 or in any other way. By requiring these data, CMS could
                             better monitor participation in these screenings. Once tracking systems
                             for reporting are in place, CMS could establish a baseline participation
                             rate and perhaps a goal to increase participation in vision and hearing
                             screenings. Further, the requirement would likely drive States to
                             develop guidance for providers to assist them with proper
                             documentation and billing so that the State could report these
                             screenings to CMS. Lastly, requiring these data would enable CMS and
                             States to identify problem areas and work to find solutions.

                             While we recognize that States may not currently have mechanisms for
                             tracking vision and hearing screenings, we make this recommendation
                             as a first step in obtaining usable data about these screenings.

OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   20
    R   E C O       M M E N D A T                         I O N               S


                             Requiring that vision and hearing screening data be reported to CMS
                             will enable CMS to determine the number of States that do not have
                             data available and the quality of the data in the States where they are
                             available. It may also enable CMS to determine the barriers to
                             collecting these data. Having this information, CMS could begin
                             working with States to improve reporting. Although obtaining quality
                             data is likely a multiyear process, as stated above, we believe that
                             reporting is a necessary first step that would enable States and CMS to
                             monitor the delivery of vision and hearing screenings.

                             To collect data on vision and hearing screenings, CMS could revise the
                             CMS-416 data collection form to include vision and hearing screenings
                             or it could work with States to develop an alternative method of
                             tracking these screenings and reporting to CMS. In response to
                             recommendations in a 2009 GAO report, CMS indicated a willingness to
                             review and revise the CMS-416. 53 We suggest that CMS consider
                             making these changes as part of that review and revision process.
                             Collaborate with States and providers to develop effective strategies to
                             encourage beneficiary participation in EPSDT screenings
                             CMS and States should collaborate to develop appropriate education for
                             families. In addition to alerting families of the EPSDT benefit, States
                             could focus education and outreach efforts on the importance of
                             preventive care. Officials from multiple States discussed a concern that
                             families do not emphasize preventive care. Due to this concern, a
                             culture that supports preventive care needs to be developed.

                             CMS should also collaborate with providers, such as through national or
                             local pediatric medical organizations. Collaborating with providers may
                             identify the best way to work with families. It may involve ideas about
                             how to reach out to families to encourage preventive care or ideas for
                             small incentives that might encourage more children to participate.
                             Collaborate with States and providers to develop education and incentives
                             for providers to encourage complete medical screenings
                             CMS and States should collaborate with national or local pediatric
                             medical organizations and regional or State provider groups to educate
                             providers on the necessity and importance of each of the five
                             components of a medical screening. The education could clarify what is
                             expected during a medical screening and what is considered appropriate


                                53 GAO,    Medicaid Preventive Services.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   21
    R   E C O       M M E N D A T                         I O N               S


                             documentation. Strong working relationships between States and
                             providers and their associations are critical for supporting providers’
                             participation in delivering EPSDT services. 54 In addition, provider
                             input is important for developing effective education techniques.

                             Additionally, CMS should work with States to develop incentives for
                             providers to encourage complete medical screenings. This could include
                             exploring ways to revise billing practices to encourage complete
                             screenings. One example of revising billing practices could involve
                             billing separate codes for each component of a medical screening (at
                             lesser amounts), and if all five components were billed on the same date
                             of service, the provider would receive payment up to the current
                             reimbursement amount.
                             Identify and disseminate promising State practices for increasing children’s
                             participation in EPSDT screenings and providers’ delivery of complete
                             medical screenings
                             CMS should identify and disseminate promising practices among States
                             to ensure that children benefit from EPSDT’s screening services. This
                             effort should focus on practices designed to ensure that families are
                             aware of EPSDT screening services and methods to encourage children’s
                             participation in EPSDT screening services. For example, this may
                             include information about incentives offered by States or managed care
                             organizations within a State to families to encourage participation.

                             In identifying promising practices, CMS should also identify and
                             disseminate promising approaches to working with providers to increase
                             the completeness of medical screenings. Officials from the selected
                             States described some approaches that appear, at face value, to be
                             promising. Perhaps this could be a starting point for this effort. Those
                             ideas included initiatives focused on various components, States’
                             experiences with the development and adoption of standardized forms,
                             and the creation of incentive programs.

                             To accomplish these tasks, CMS could consider an initiative similar to
                             the recently completed EPSDT dental reviews for developing promising
                             practices. As a result of that initiative, CMS published a National
                             Dental Summary that included promising and notable practices for



                                54 National Academy for State Health Policy,
                                                                       New Opportunities and Continuing
                             Challenges: A Report from the NASHP EPSDT Forum. July 2008. Accessed at
                             http://www.nashp.org on November 3, 2009.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   22
    R   E C O       M M E N D A T                         I O N               S


                             improving access to dental services. 55 CMS has also indicated a
                             willingness to collect promising practices from States to ensure children
                             receive preventive services. 56


                             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                             RESPONSE
                             CMS indicated that it concurred, in part, with our first recommendation
                             to require States to report vision and hearing screenings. In its
                             comments, CMS stated that it will consider how hearing and vision
                             screenings could be included as part of any revised or new data
                             collection efforts currently in progress. CMS stated that it is
                             implementing new reporting requirements based on two laws enacted
                             in 2009 and that it will consider our recommendation as part of these
                             efforts. However, CMS indicated that it will need to assess the effect
                             new data collection requirements might have on States’ financial
                             resources as well as consider the difficulty States might have in
                             obtaining data on services that are provided outside traditional
                             provider settings.

                             We agree that CMS should assess the costs of any new data collection
                             requirements for vision and hearing screenings and States’ ability to
                             collect these data. However, we continue to think that requiring States
                             to report vision and hearing screenings will enable CMS to better
                             monitor participation in these screenings. Requiring these data would
                             enable CMS to identify which States do not have data available,
                             determine the quality of the data that are available, and identify
                             barriers to collecting these data. With this information, CMS could
                             begin working with States to improve reporting. Although obtaining
                             quality data is likely a multiyear process, we continue to believe that
                             reporting is a necessary first step that would enable States and CMS to
                             monitor the delivery of vision and hearing screenings.

                             CMS concurred with our other three recommendations and indicated its
                             commitment to improving beneficiary and provider participation in
                             EPSDT. CMS stated that in collaboration with States and national
                             experts, it has begun efforts to improve the provision of EPSDT
                             services. CMS also stated that it is developing an internal work plan to

                               55 CMS, 2008 National Dental Summary, January 2009. Accessed at
                             http://www.cms.hhs.gov on November 3, 2009.
                                56 GAO,    Medicaid Preventive Services.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   23
    R   E C O       M M E N D A T                         I O N               S


                             improve EPSDT guidance for State Medicaid agencies. In addition,
                             CMS held two events in 2009 to obtain input from State Medicaid
                             programs and national organizations and to hear their
                             recommendations on how to improve EPSDT. Further, CMS stated
                             that it intends to create a National EPSDT Improvement Workgroup in
                             2010, which will include State Medicaid agencies, providers, and other
                             stakeholders. CMS expects this workgroup to recommend a
                             multifaceted approach to improving EPSDT, including strategies that
                             ensure accountability on the part of providers. The workgroup is also
                             expected to determine whether there are opportunities to identify and
                             share promising practice information.
                             We made revisions to the draft report based on CMS’s technical
                             comments.

                             For the full text of CMS’s comments, see Appendix D.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   24
    A   P   P E N D         I X       ~             A
           A P P E N D I X                              ~            A

                  Components of a Complete Medical Screening
                  A complete medical screening is one in which each of the five required
                  components is delivered. 57 The required components are:
                  1. Comprehensive health and developmental history. This includes a physical
                     and mental developmental assessment and an assessment of nutritional
                     status. Providers are expected to assess the child’s usual functioning as
                     reported by a familiar person, review all information and make an objective
                     judgment as to whether the child is within the expected range, ensure that
                     assessments are culturally sensitive and valid, refrain from making a
                     premature diagnosis and instead report only that a condition was referred or
                     that a type of diagnostic or treatment services is needed, and consult child
                     development resources when concerns or questions remain.

                  2. Comprehensive unclothed physical examination. The physical examination
                     should note obvious physical defects and include an examination of all organ
                     systems. In addition, physical growth, including height and weight, must be
                     included. Results should be compared to what is considered normal for that
                     age.

                  3. Appropriate immunizations. Immunizations should be provided when
                     medically necessary and appropriate for age and health history according to
                     the recommendations of the Advisory Committee on Immunization Practices.

                  4. Appropriate laboratory tests. CMS requires a blood lead test at the ages of
                     12 and 24 months. Additional appropriate laboratory tests should be
                     determined by each State for particular age and population groups. CMS
                     instructs States to develop their minimum laboratory screening requirements
                     in consultation with State medical organizations or by referencing recognized
                     and accepted clinical practice guidelines. CMS provides examples of tests for
                     States to consider, such as hematocrit, urinalysis, tuberculosis (TB) skin
                     testing, sexually transmitted disease screening, and cholesterol screening.

                      States often require a risk assessment to determine whether a lab test should
                      be performed. A risk assessment may include questions such as “Does the
                      child live in a home with peeling or chipped paint built prior to 1978?” (lead
                      risk assessment) or “As far as you know has your child been around anyone
                      sick with TB?” (TB risk assessment).

                  5. Health education (including anticipatory guidance). Providers are instructed
                     to use the screening as context for providing health education. Providers are


                                57 Centers for Medicare & Medicaid Services (CMS),                                   Manual, §§ 5123.2(A)-(E).



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   25
    A   P   P E N D         I X       ~             A


                      to give information to the child and the child’s family about the benefits of
                      healthy lifestyles and practices as well as accident and disease prevention
                      (health education). This component is also intended to assist in
                      understanding what to expect in the child’s development (anticipatory
                      guidance).




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   26
                 A P P E N D I X                               ~            B
                              Detailed Methodology
                              Sample
                              State selection. To review the Early and Periodic Screening, Diagnostic,
                              and Treatment (EPSDT) benefit, we selected 10 States for review. To
                              determine which States to include in this study, we used States’
                              2006 Annual EPSDT Participation Report Form CMS-416 (CMS-416)
                              submissions to the Centers for Medicare & Medicaid Services (CMS).
                              Data from 2006 were the most recent CMS-416 data available at the
                              time of State selection. The 2006 CMS-416 data for Kentucky and
                              Maine were not available from CMS; therefore we excluded these
                              States. We also excluded States that had more than 90 percent
                              enrollment in either fee-for-service (FFS) or managed care, based on the
                              CMS-416, to ensure representation from both service delivery models.
                              This removed nine States. 58 We ranked the remaining 39 States and
                              the District of Columbia by number of children eligible for the Medicaid
                              EPSDT and by participant ratio. We then summed the two rankings to
                              create a combined score for State selection. To provide us with a range
                              of State sizes and EPSDT participation, we chose the five States with
                              the lowest combined scores and the five States with the highest
                              combined scores.

                              Beneficiary sampling frame. We created a sampling frame of
                              EPSDT-eligible children in the 10 originally selected States expected to
                              receive at least one EPSDT medical screening based on their ages. We
                              used Medicaid eligibility data from the selected States and States’
                              periodicity schedules to determine which children were required to
                              receive screenings.
                              First, we requested 2007 Medicaid State Information System (MSIS)
                              eligibility files from CMS. For States with available MSIS data, we
                              used these data to determine those children enrolled in Medicaid and
                              eligible for the EPSDT benefit for the entire year. For the four States
                              for which MSIS data were unavailable or incomplete, we requested
                              directly from the States a list of children enrolled in Medicaid and
                              eligible for the EPSDT benefit for all of 2007.

                              Second, we determined the age of each EPSDT-eligible child, using
                              the demographic information from the MSIS eligibility files or the


                                58 These States included Alaska, Arizona, Colorado, Mississippi, Oregon, South Carolina,
                              South Dakota, Tennessee, and Wyoming.



OEI-05-08-00520    MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   27
    A   P   P E N D         I X       ~             B


                             State-provided data. If a child’s birthday was during the first
                             6 months of 2007, then we used the age he or she became in 2007. If
                             a child’s birthday was in the last 6 months of 2007, then we used the
                             age he or she became on his or her last birthday, in 2006. For
                             example, if a child turned age 6 on April 3, 2007, we determined the
                             child to be 6 years old. If a child turned age 6 on September 3, 2007,
                             we determined the child to be 5 years old. Hereinafter, when we refer
                             to a child’s age, we mean the age we determined the child to be in this
                             step.

                             Third, we determined whether a child was required to receive an
                             EPSDT service based on the child’s age. To do this, we used each
                             State’s periodicity schedule in effect during 2007. Although States’
                             periodicity schedules may change from year to year, the requirements
                             remained the same across the study period in the selected States.

                             Finally, we combined all of the remaining children from the original
                             10 selected States into 1 sampling frame.
                             Beneficiary sample. The final sample consisted of 345 children. After
                             creating the sampling frame, we selected a stratified random sample of
                             360 children. We stratified the sample by service delivery model (FFS
                             or managed care) and age group. We stratified by service delivery
                             model because a previous Office of Inspector General (OIG) report on
                             EPSDT found problems in managed care. 59 We stratified by age
                             because research suggested vulnerabilities by age in EPSDT. 60 We used
                             three age groups for representation: under age 3, 3–8, and 9–21. We
                             determined each child’s service delivery model based on the model each
                             child was enrolled in for at least 6 months of 2007. We selected
                             60 children from each of the 6 strata.

                             From the sample of 360 children, we dropped 11 children because of
                             ongoing investigations into their provider(s) by OIG or State Medicaid
                             Fraud Control Units. One State was dropped at this time because of an
                             ongoing provider investigation by OIG, resulting in nine States. We
                             dropped an additional four children because further research deemed
                             them ineligible for EPSDT. Table B-1 shows the population of children
                             within the sampling frame, the six strata, and the final number of
                             children in each stratum.


                                59 OIG, Medicaid Managed Care and EPSDT.
                                60 National Health Law Program, Children’s Health                                   Under Medicaid.



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   28
    A   P   P E N D         I X         ~            B


                             Table B-1: Sample Stratification
                                                           Managed Care                                            FFS                                            Total
                               Age
                               Group
                                                     Population                Sample               Population                 Sample               Population                 Sample

                               <3                         669,281                       58                240,185                       60                909,466                   118

                               3–8                        941,968                       55                408,501                       60             1,350,469                    115

                               9–21                       964,891                       57                583,126                       55             1,548,017                    112

                                  Total                2,576,140                      170              1,231,812                      175              3,807,952                    345

                               Source: OIG Sample stratification, 2009.


                             Data Collection
                             Medical record request. For the 345 children, States reported that
                             98 children did not have any providers who billed EPSDT-related
                             Current Procedural Terminology (CPT) codes during their sample
                             periods. Therefore, for the remaining 247 children, we requested
                             medical records from all providers who billed an EPSDT-related CPT
                             code. We requested medical records for a 14-month period of time from
                             providers for these 247 children. This period of time included
                             documentation for 1 month before and 1 month after each child’s 12-
                             month determined age to provide additional context. For 82 children,
                             the sample period was 26 months because the State’s periodicity
                             schedule required 1 screening within a 2-year period.
                             The initial medical record request was sent by mail. We made two
                             additional attempts by mail and two attempts by telephone to obtain
                             the records. We made the last written request by signature-required
                             certified mail. We received responses from all providers.

                             However, we did not receive enough information for 14 children to
                             determine whether they received screenings. For these children, at
                             least one of their providers either responded that the child was not a
                             patient or that the provider retired and did not retain records or
                             responded only with the signed certified-mail receipt from the last
                             written request.
                             Test review. To test the medical record review instrument and to ensure
                             uniformity among the multiple OIG staff reviewers, we conducted a
                             preliminary review of children’s medical records. Beyond the original
                             sample of 360 children, we selected an additional 30 children for the test
                             review and requested their medical records as outlined above. Each
                             child was assigned to one of four OIG staff reviewers. Each reviewer
                             reviewed the first 15 medical records received. As a group, we analyzed

OEI-05-08-00520   MOST MEDICAID CHILDREN    IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   29
    A   P   P E N D         I X       ~             B


                             the results of the review. We then made necessary revisions to the
                             review instrument and discussed the results to resolve any reviewer
                             inconsistencies.
                             Data Analysis
                             We reviewed medical records to determine whether a child received all,
                             some, or none of the required EPSDT screenings. The reviewers used
                             the periodicity schedule established by the State in which each child
                             resided to determine the required number of medical screenings at his
                             or her determined age. For vision and hearing screenings, we used
                             State periodicity schedules to determine whether a child was required to
                             receive a screening at his or her age. We then analyzed the documents
                             in the medical records to determine the types of screenings that
                             occurred.

                             We also reviewed the medical records to determine the completeness of
                             medical screenings. We considered a medical screening complete only if
                             the medical record included documentation of all five required
                             components.

                             Quality assurance. We selected both a purposive sample and a random
                             sample of children to review for quality assurance during and after the
                             review of medical records. On a weekly basis during the review of
                             medical records, reviewers chose the two to four most difficult of their
                             assigned medical records for a quality assurance check. Difficult
                             records may have been illegible or the assigned reviewer had concerns
                             about the sufficiency of the record’s documentation. The other
                             reviewers then analyzed the records for the selected children, and we
                             discussed the results each week to resolve any reviewer inconsistencies
                             and changed the results if necessary. At the end of the review of
                             medical records, an additional random sample of children was selected
                             for a similar quality assurance review. In total, all reviewers
                             participated in a quality assurance check for 35 children, or 14 percent
                             of children for whom medical records were requested.

                             Analysis of medical record review results. We used the results of the
                             review of medical records, including the 98 children without
                             EPSDT-related billing, to calculate the percentage of children missing
                             all, some, or none of the required screenings. We counted the number of
                             children who received all required screenings, the number of children
                             who received some screenings, and the number of children who did not
                             receive any screenings and divided each total by the number of children



OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   30
    A   P   P E N D         I X       ~             B


                             in the sample, including children whose medical records had insufficient
                             documentation.

                             We used the results to count the number of children who did not receive
                             each type of screening. We then divided the totals for each type of
                             screening by the total number of children in the sample.

                             We considered a child to have received a medical screening even if the
                             screening did not include all five components.

                             In addition, for the children whose medical records did not indicate that
                             they received vision or hearing screenings and who were not required to
                             receive those screenings, we considered those children to have met the
                             vision and hearing requirements.

                             To determine the percentage of children who were missing components
                             of a medical screening over the course of a year, we first excluded any
                             children who did not receive any medical screenings during the sample
                             period. We also excluded children whose records had insufficient
                             documentation. This left 197 children for analysis.

                             We used the results to determine how many of the five components a
                             child did not receive during the sample period. We determined whether
                             each child was missing 0, 1, 2, 3, or 4 of the components. Then, we
                             divided each group of children by the total number of children who
                             received medical screenings. We also determined whether the lab test
                             component was not received more often than any other component.
                             Using the Bonferroni method for multiple comparisons, a difference was
                             statistically significant if the confidence interval of the difference did
                             not contain zero using an alpha of 0.05 divided by 4, or 0.0125.
                             We attempted to be as generous as possible when reviewing records for
                             documentation of the components. For the health and developmental
                             history component, we looked for any documentation indicating that a
                             developmental assessment (both mental and physical health history)
                             and an assessment of nutritional status occurred. Similarly, for the
                             immunization component, we considered the component complete if
                             there was any indication that providers checked to be sure a child was
                             up-to-date on immunizations or administered immunizations. For the
                             lab test component, we used each State’s laboratory schedule to
                             determine what, if any, lab tests were required at a child’s age. If no lab
                             test was required, we considered the laboratory component complete. If
                             lab tests were required, we looked for any indication that the required
                             lab tests were assessed or performed. Lastly, for the other two


OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   31
    A   P   P E N D         I X       ~             B


                             components, we looked for any documentation (physician notes,
                             checkmarks on forms, etc.) that the provider attempted to address the
                             component.

                             To determine the percentage of children missing each component, we
                             counted the number of children who lacked each component during an
                             entire year and divided that by the total number of children who
                             received medical screenings.

                             As part of the analysis of the laboratory component, we also analyzed
                             the results for two different lab tests. To determine the percentage of
                             children who were missing blood lead tests, we counted the number of
                             children who did not receive required blood lead tests and divided that
                             by the number of children required by Federal law to receive blood lead
                             tests. To determine the percentage of children who were missing
                             tuberculosis (TB) tests, we counted the number of children who did not
                             receive required TB tests and divided that by the number of children
                             required by their States to receive TB tests.
                             Generally, we found no significant differences in EPSDT participation
                             between children in FFS and managed care or between age groups.
                             Therefore, we did not present the results in the report.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   32
     A    P    P E N D             I X          ~            C
              A P P E N D I X                                    ~            C

                                     Estimates and Confidence Intervals
  Table C-1: Estimates of Medical Record Review Results Analysis

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval



 Percentage of children who did not receive all required Early and
 Periodic Screening, Diagnostic, and Treatment (EPSDT) medical,                                                      345                         75.7                  70.7%—80.6%
 vision, and hearing screenings


 Number of children who did not receive all required EPSDT medical,                                                                                                        2,553,012—
                                                                                                                     345                2,731,975
 vision, and hearing screenings                                                                                                                                              2,910,938


 Percentage of children who received all EPSDT screenings                                                            345                         20.8                  16.1%—25.5%

 Percentage of children who did not receive any EPSDT screenings                                                     345                         37.8                  32.4%—43.3%

 Percentage of children who were missing types of screenings                                                         345                         33.5                  28.1%—38.9%


 Percentage of children who had all types of screenings, but an incorrect
                                                                                                                     345                           4.3                     2.4%—6.2%
 number of screenings


 Percentage of children whose medical records had insufficient
                                                                                                                     345                           3.6                     1.5%—5.6%
 documentation


 Percentage of children who received at least one, but not all, EPSDT
                                                                                                                     345                         37.8                  32.4%—43.2%
 screenings


 Percentage of children who did not receive any medical screenings                                                   345                         41.4                  35.9%—46.9%

 Percentage of children who did not receive any vision screenings                                                    345                         59.6                  53.9%—65.2%

 Percentage of children who did not receive any hearing screenings                                                   345                         66.6                  61.4%—71.9%

 Percentage of children who received at least one medical screening                                                  345                         55.0                  49.5%—60.6%

                                                                                                                                                                           1,786,186—
 Number of children who received at least one medical screening                                                      345                1,986,492
                                                                                                                                                                             2,186,798
 Source: Office of Inspector General (OIG) analysis of results of a review of medical records, 2009.




  Table C-2: Estimates of Medical Record Review Results Analysis for Children
  Who Did Not Receive Hearing Screenings

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval


 Percentage of children who did not receive hearing screenings and did
                                                                                                                     242                         55.7                  49.0%—62.4%
 not receive medical screenings

 Source: OIG analysis of results of a review of medical records, 2009.



OEI-05-08-00520       MOST MEDICAID CHILDREN        IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   33
     A    P    P E N D             I X          ~            C


  Table C-3: Estimates of Medical Record Review Results Analysis for Children
  Who Did Not Receive Vision Screenings

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval


 Percentage of children who did not receive vision screenings and did
                                                                                                                     222                         60.1                  53.9%—67.2%
 not receive medical screenings

 Source: OIG analysis of results of a review of medical records, 2009.



  Table C-4: Estimates of Medical Record Review Results Analysis for Children
  Who Received Medical Screenings

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval


 Percentage of children who received medical screenings but did not
                                                                                                                     197                         59.5                  52.0%—66.8%
 receive all components


 Percentage of children who received medical screenings and received
                                                                                                                     197                         41.4                  35.9%—46.9%
 complete screenings


 Percentage of children who received medical screenings but did not
                                                                                                                     197                         29.9                  22.9%—36.9%
 receive one component


 Percentage of children who received medical screenings but did not
                                                                                                                     197                         17.9                  11.8%—24.0%
 receive two components


 Percentage of children who received medical screenings but did not
                                                                                                                     197                           9.1                   4.5%—13.6%
 receive three components


 Percentage of children who received medical screenings but did not
                                                                                                                     197                           2.0                    0.6%—5.1%*
 receive four components


 Percentage of children who received medical screenings but did not
                                                                                                                     197                         38.2                  30.7%—45.6%
 receive the appropriate laboratory tests component


 Percentage of children who received medical screenings but did not
                                                                                                                     197                         21.0                  14.7%—27.4%
 receive the health and developmental history component


 Percentage of children who received medical screenings but did not
                                                                                                                     197                           8.2                   3.9%—12.5%
 receive the complete unclothed physical examination component


 Percentage of children who received medical screenings but did not
                                                                                                                     197                         12.8                    7.6%—17.9%
 receive the appropriate immunizations component

 * Confidence interval calculated with an exact method based on the binomial distribution.
                                                                                                                                                              continued on next page




OEI-05-08-00520       MOST MEDICAID CHILDREN        IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   34
     A    P    P E N D             I X          ~            C


  Table C-4: Estimates of Medical Record Review Results Analysis for Children
  Who Received Medical Screenings, continued

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval



 Percentage of children who received medical screenings but did not
 receive the health education (including anticipatory guidance)                                                      197                         20.7                  14.4%—27.0%
 component

 Source: OIG analysis of results of a review of medical records, 2009.



  Table C-5: Estimates of Medical Record Review Results Analysis for Children
  Who Did Not Receive Any Medical Screenings

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval


 Percentage of children who did not receive medical screenings and did
                                                                                                                     148                         86.4                  81.1%—91.8%
 not receive vision and hearing screenings

 Source: OIG analysis of results of a review of medical records, 2009.




  Table C-6: Estimates of Medical Record Review Results Analysis for Children
  Who Received Medical Screenings and Were Required to Receive Tuberculosis
  Tests

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval


 Percentage of children who received medical screenings and were
                                                                                                                     115                         69.1                  59.9%—78.3%
 required to receive tuberculosis tests but did not receive them

 Source: OIG analysis of results of a review of medical records, 2009.



  Table C-7: Estimates of Medical Record Review Results Analysis for Children
  Who Received Medical Screenings and Were Required to Receive Blood Lead
  Tests

                                                                                                              Sample                        Point                     95-Percent
 Estimate Description
                                                                                                                Size                     Estimate             Confidence Interval


 Percentage of one- and two-year-olds who received medical screenings
                                                                                                                       56                        57.4                  42.4%—72.4%
 but did not receive mandatory blood lead tests

 Source: OIG analysis of results of a review of medical records, 2009.




OEI-05-08-00520       MOST MEDICAID CHILDREN        IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   35
            A P PEN 0                       x                o

                                Agency Comments




                            DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                                     Ad11linistrator
                                                                                                     Washington, DC 20201




                        DATE:
                                        MAfi 18 20m
                        TO: 	          Daniel R, Levinson 

                                       Deputy Inspector General 


                        FROM: 	        Charlene Frizzeta 
 /S/
                                       Acting Administrator 


                        SUBJECT:      Office of Inspector General (OIG) Draft Report: Most Medicaid Childreil Are 

                                      Not Receiving All Required Preventive Screening Services (OEI -05-08-00520) 



                       The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and 

                       comment on the Office oflnspector General (OIG) draft report, 


                       The CMS is committed to improving access to services fot Medicaid eligible children, and to 

                       ensuring that children receive the full scope of services .available under the Medicaid Early and 

                       Periodic Screening, Diagnosis, and Treatment (EPSDT) benefit. We COncur with most ofthe 

                       recommendations in thIs report and are undertaking efforts in conjunction with States ahd 

                       national experts to improve the provision ofEPSDT services. In addition, we have attached 

                       technical comments on the draft report,                                 .                (~; ~ 

                                                                                                                  C'     ~      ,;s1J

                       OIG Recommendation                                                                      C'lr,;    ~      ("'11

                                                                                                               ,."u             ()
                                                                                                               ~ '''"!   \!)    ~>¥1
                       Require States to report vision and hearing screenings, 

                                                                                                               X)7~      :r.-   <~ 

                       CMS Response                                                                            ;~ ~             8
                                                                                                                   .~'   N
                       The CMS concurs, in part, with this recommendation, CMS is undertaking broader eff~rts, N
                      which are described below, to strengthen the EPSDT program. As OIG notes in its report, this
                      could include reviewing the data collected on the Form CMS-416 to ensure that the data
                      accurately measure children's access to the preventive and follow up services to which they are
                      entitled under EPSDT, Additionally, we will assess opportunities to improve our data collection
                      and reporting to better measure the quality of and access to services provided to children under
                      EPSDT, As we continue to implement the child health care quality measure program and annual
                      quality reporting provisions established by the Children's Health Insurance Program
                      Reauthorization Act of2009, and the electronic health records incentive provisions of the
                      American Recovery and Reinvestment Act of2009, we will consider how hearing and vision
                      screenings could be included as part of any revised or new data collection effort.




OEI·05·08·00520   MOST MEDICAID CHILDREN IN NINE STATES ARE NOT RECEIVING ALL REQUIRED PREVENTIVE SCREENING SERVICES                     36
    A   P   P E N D         I X       ~             D




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   37
    A   P   P E N D         I X       ~             D




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   38
    A   P   P E N D         I X       ~             D




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   39
           A C K N O W L E D G M E N T S

                             This report was prepared under the direction of Ann Maxwell, Regional
                             Inspector General for Evaluation and Inspections in the Chicago
                             regional office, and Thomas F. Komaniecki, Deputy Regional Inspector
                             General.

                             Nicole Hrycyk served as the team leader for this study. Other principal
                             Office of Evaluation and Inspections staff from the Chicago regional
                             office who contributed to the report include Benjamin Dieterich, Patrick
                             Joyce, Meghan Kearns, and Lauren Rosapep; central office staff who
                             contributed include Heather Barton, Scott Manley, and Megan Ruhnke.




OEI-05-08-00520   MOST MEDICAID CHILDREN   IN   N I N E S TAT E S A R E N O T R E C E I V I N G A L L R E Q U I R E D P R E V E N T I V E S C R E E N I N G S E R V I C E S   40
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
